No. 20·8

Jf n tbe ~upren1e <!Court of tbe Wntteb ~tates
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,

Petitioners,
V.

ROBERT

R. McCORMICK Fou DATION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, Joshua S. Bolian, a member of
the Bar of this Court, hereby certify that the Reply Brief for Petitioners in the
above-captioned case contains 2,997 words, excluding the parts of the Reply Brief
for Petitioners that are exempted by Supreme Court Rule 33. l(d).

I declare under penalty of perjury that the foregoing is true and correct.

Joshua S. Bolian
Dated: September 8, 2020

